                     CLOSEOUT FOR CASE M-00030013
On 1 March 2000, the subject1called an NSF program manage? to ask how NSF would
view something she had done. The program manager expressed concern about the
subject's apparent conflict of interests and brought this matter to our attention. The
subject, who was concerned about the program manager's reaction to what she had told
him, called a another NSF program manage? to learn more about whether what she had
done might be a problem. .

The subject told us that she submitted an ad hoc review4 for an NSF proposal," a proposal
she rated as very good. The proposal was funded. In her ad hoc review, the subject
explained that she could not rate the proposal as excellent because she thought the PIS
failed to include an important additional project in the study. She said that she had
forgotten all about the proposal until one of her colleagues started to discuss some of the
work already completed by the PI on the NSF award. At the next major conference, the
subject introduced herself to the PI. She told him that she had reviewed his proposal and
that, in her review, she had remarked on the proposal's failure to include the additional
project. She said she asked the PI if anyone was doing this project. The PI said no and
asked her if she would be interested. She said she would. She said the PI welcomed her
participation if she could get her own funding. He offered to write her a letter of support,
which she said he did. She explained that she submitted a proposal to do the project, but,
because of NSF deadlines, she submitted it to another agency.6 She said the proposal
contained a letter from the PI in support of her participation on the larger NSF project.

The PI corroborated the subject's story. He said that after meeting the subject at the
conference, he expressed the desire to find someone to do the project she had discussed in
the review. He said that she expressed interest. He said she did not ask to be supported
by the award, but agreed to seek her own firnding. The PI said he provided her with a
letter of support for her recent proposal application.

We concluded that the subject did nothing inappropriate. This case is closed and no
further action will be taken.

cc: Integrity, IG.




                                        Page 1 of 1                                M 00-13
